<html>
<title> - PROVINCIAL RECONSTRUCTION TEAMS: A CASE FOR INTERAGENCY NATIONAL SECURITY REFORM?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-115]
 
                    PROVINCIAL RECONSTRUCTION TEAMS:

                    A CASE FOR INTERAGENCY NATIONAL

                            SECURITY REFORM?

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2008




   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]







                   U.S. GOVERNMENT PRINTING OFFICE
43-781                      WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001




               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, February 14, 2008, Provincial Reconstruction Teams: A 
  Case for Interagency National Security Reform?.................     1

Appendix:

Thursday, February 14, 2008......................................    19
                              ----------                              

                      THURSDAY, FEBRUARY 14, 2008
   PROVINCIAL RECONSTRUCTION TEAMS: A CASE FOR INTERAGENCY NATIONAL 
                            SECURITY REFORM?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     4
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Henry, Ryan, Principal Deputy Under Secretary for Policy, 
  Department of Defense; Barry Pavel, Principal Deputy Assistant 
  Secretary for Special Operations, Low Intensity Conflict and 
  Interdependent Capabilities, Department of Defense; Michael 
  Hess, Assistant Administrator of the Bureau for Democracy, 
  Conflict and Humanitarian Assistance, U.S. Agency for 
  International Development beginning on page....................     2

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    25
    Henry, Ryan..................................................    32
    Hess, Michael................................................    40
    Mull, Ambassador Stephen D., Acting Assistant Secretary of 
      State for Political Military Affairs, Department of State..    26
    Snyder, Hon. Vic.............................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Dr. Snyder...................................................    53
   PROVINCIAL RECONSTRUCTION TEAMS: A CASE FOR INTERAGENCY NATIONAL 
                            SECURITY REFORM?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Thursday, February 14, 2008.
    The subcommittee met, pursuant to call, at 4:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. We will go ahead and start. Mr. Akin is on his 
way and said it is okay for us to start without him.
    Again, I want to apologize for what occurred. It is just 
the nature of our legislative body that sometimes happens.
    Your written statements, including the statement of 
Ambassador Mull, who we knew had to leave--when we originally 
were planning to start here at 2:00, we knew he had to leave by 
4:00, but all of your written statements--I think three of you 
have written statements--will be made of the record.
    When we are concluded, there may be members that will want 
to ask you questions for the record. We may want to do that.
    But mainly we want to continue this discussion on how to do 
things better in these conflicts that we find ourselves in now 
and will find ourselves in in the future, and this subcommittee 
for the last several months has been looking at the Provincial 
Reconstruction Teams (PRTs) which has led to a lot of 
discussions about the relationships between the different 
agencies of government, not just the military ones, as you 
know, but State and the Agency for International Development 
(USAID) and others.
    And the staff here have heard me say several times one of 
my constituents from back home, who is a civilian in Iraq 
today, sent me an e-mail some months ago that was asking about 
this, and she said, ``I sometimes think that the differences in 
conflicts between our agency and other agencies of the U.S. 
Government are greater than the differences between us and the 
Iraqis,'' which I think brought home some of the challenges 
that we have.
    I also wanted to indicate that Mr. Tierney from the 
Government Oversight and Reform Committee has had some hearings 
on these issues. He is aware of and his staff are aware of what 
is going on here. Sam Farr on the Appropriations Committee has 
the bill on the Civilian Reserve Corps and has attended 
hearings. He is interested in this and has attended hearings 
before. Mr. Delahunt and I have already talked about doing 
joint hearings together on this.
    So there is some growing interest in this congressional 
body working across the different committees and subcommittees, 
and you all are part of that today, having both represented the 
State Department and the Department of Defense (DOD).
    And so what we will do is--should we begin with Secretary 
Henry and then----
    Let us have your opening statement. We will put this five-
minute clock on you. The red light, if it goes off, means at 
the end of five minutes, if you have other things to say, you 
keep going, but it is just for your indication of when five 
minutes will have passed.
    So Secretary Henry.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 23.]

STATEMENTS OF RYAN HENRY, PRINCIPAL DEPUTY UNDER SECRETARY FOR 
 POLICY, DEPARTMENT OF DEFENSE; BARRY PAVEL, PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY FOR SPECIAL OPERATIONS, LOW INTENSITY 
    CONFLICT AND INTERDEPENDENT CAPABILITIES, DEPARTMENT OF 
 DEFENSE; MICHAEL HESS, ASSISTANT ADMINISTRATOR OF THE BUREAU 
   FOR DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

                    STATEMENT OF RYAN HENRY

    Secretary Henry. Thank you, Mr. Chairman.
    And, actually, we generally are pleased to be here. You 
know, a lot of times over at the executive branch, we scratch 
our heads and say, ``Why doesn't Congress ever hold hearings on 
things that are really important, you know, where we need to 
work together?'' and this is one area that is quite important 
to us and the Department of Defense, and so we appreciate your 
interest in this area, and we want to do what we can to be 
supportive.
    I have submitted a written statement for the record, as you 
mentioned, and ask that it be entered, so I will just make a 
few opening remarks.
    Current and future adversaries are and will seek to exploit 
the seams in our society and our government, and they are 
presenting fundamentally new challenges to our post-Cold War 
governmental organization and structure, as you pointed out. 
The key to the future success will be our ability to adapt and 
respond more rapidly, creatively, and coherently than our 
enemies do.
    Today's government architecture, both the executive and, 
perhaps to a lesser extent, the legislative is beginning to 
reflect the growing recognition that the U.S. national security 
should not rely on the use of military power at the expense of 
a coordinated whole-of-government capability. Responding 
effectively to emerging threats in the international security 
environment will be a function of post-9/11 adaptation across 
the entire government.
    I would like to highlight three areas in which we are 
growing from lessons learned during our activities in 
Afghanistan, Iraq, and elsewhere in Operation Enduring Freedom 
to inform our needed changes, and the three areas are in the 
area of capacity, planning, and operating.
    First, the key adaptation is the development of a robust 
civilian capacity and capabilities to address emerging security 
challenges. As you may be aware, Secretary Gates has spoken 
recently about the need to increase the government's investment 
in nonmilitary capability and capacity, and his thinking is 
echoed by all elements of the Defense Department, both military 
and civilian. DOD supports the State Department's Civilian 
Stabilization Initiative and H.R. 1084, which will provide 
trained, equipped, and mission-ready civilian experts that we 
need to partner with, both inside the beltway, at regional 
headquarters, and as boots on the ground, thereby reducing the 
burden on our soldiers, sailors and airmen.
    The second key adaptation will be the development of a 
whole-of-government planning capability. DOD is a key player in 
advancing this effort, including our participation in the 
development of a strategic planning process for combating 
terrorism, security, stability, and transition reconstruction 
operations, and in the area of, also, homeland security, 
working with our partners in the executive branch.
    Two recent initiatives of Congress and this Administration 
have fostered such an integrating planning effort at the 
programmatic level. Correspondingly, we urge Congress to 
reauthorize and expand the critical authorities previously that 
we have been able to use in what we refer to as Section 1206, 
which is the Global Train and Equip authorities that we have 
been given, and Section 1207, which is the Security and 
Stabilization Assistance, and these are part of a larger 
package that we presented last year and will present again this 
year under a Building Global Partnership Act from the 
Administration.
    A third key adaptation is in the development of integrated 
and civilian military operational structures and mechanisms 
that can further support interagency cooperation. The 
department is engaged through the National Security 
Presidential Directive-44 (NSPD-44) implementation and the 
development of operational models for improved civil-military 
integration in the planning and operation during crises.
    But in addition, with the establishment of African Command 
(AFRICOM) and the reorganization of our Southern Command, we 
think that this is heralding a new way forward for interagency 
operations at the regional and tactical level, and they 
highlight the critical role that civilian agencies play in the 
activities of our combatant and unified commands in improving 
our steady-state security cooperation in critical countries and 
regions.
    Additionally, internally, DOD is adapting our approach to 
these security challenges by moving away from simply 
contingency planning and moving more to what we refer to as 
campaign planning and looking at the steady-state conditions 
and peacetime--or what we refer to as Phase Zero conditions--
and putting our emphasis on those and then including the 
contingencies as branches and sequels to that broader planning 
effort.
    DOD is focusing more effort in military planning on robust, 
steady-state planning to better align our security cooperation 
and shaping activities with national security goals, and the 
department is working further to expand our integration with 
civilian agencies during this entire planning process. Through 
these improved capacity and integrated planning and operations 
efforts, our government will be better poised to execute the 
bureaucratic boundary-spanning activities needed to respond 
effectively to the changing national security environment.
    Congressional engagement in this activity at the national 
security architecture level is also critical, and that is why 
we welcome so much these hearings and look forward to the 
opportunity to cooperate with this committee and other parts of 
Congress in raising these issues. We are very certain that we 
do not have all the answers. We are coming, we think, to a 
fairly good understanding of some of the problem sets, and so 
we, again, look forward to working with you on coming up with 
what some of the solutions might be.
    And with that, I will turn it over to the others and then 
look forward to your questions.
    [The prepared statement of Secretary Henry can be found in 
the Appendix on page 32.]
    Dr. Snyder. If you will just hang on, Mr. Pavel, we have 
been joined by Mr. Akin.
    Do you have anything you want to say----

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. If I could just submit 
my opening statement for the record?
    Dr. Snyder. Without objection. Without objection.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 25.]
    Dr. Snyder. Mr. Pavel.
    Secretary Pavel. I have no opening statement. I will defer 
my time to----
    Dr. Snyder. Okay. Mr. Hess.

                   STATEMENT OF MICHAEL HESS

    Mr. Hess. Sure.
    Dr. Snyder. We are moving right along here, aren't we?
    Mr. Hess. It is great, sir.
    With your permission, sir, I will submit my statement for 
the record.
    Dr. Snyder. Without objection.
    Mr. Hess. I will try to cut it back.
    Chairman Snyder, Ranking Member Akin, distinguished members 
of the subcommittee, thank you for inviting me to appear before 
you today. I am pleased to have the opportunity to meet with 
you and to discuss the United States Agency for International 
Development's views on the overwhelming challenges in the 
context of future interagency operations.
    I am going to concentrate on three points. One is that the 
training that is going on right now for the PRTs that are 
deploying in Afghanistan right now and at Fort Bragg--I will 
talk about that--and a little bit about the programming in 
Afghanistan as an example of how the PRTs work together, then 
wrap up with some concluding statements on how we are working 
together as an interagency.
    As an example of our 3-D coordination, our Office of 
Military Affairs is currently contributing to presentations at 
a three-week-long interagency predeployment training at Fort 
Bragg, North Carolina.
    USAID contributes particularly to these discussions in that 
we have an expert on the Tactical Conflict Assessment 
Framework, which provides an overview of the standardized 
diagnostic framework for tactically assessing the causes of 
instability and conflict in the area of operations, with 
emphasis on viewing the environment through culturally 
sensitive and consistent data collection, understanding how to 
change that environment by identifying and targeting the causes 
of instability and conflict, implementing programs that 
diminish the causes, and finally measuring the effectiveness of 
that program.
    USAID trainers also stress the importance of community 
input into the PRT process and priority setting.
    Just as a side note, we have also trained an infantry 
brigade, the 52nd Brigade of the British army, before they 
deployed to Afghanistan.
    In terms of programming, our programs and projects are 
designed and developed by the PRT team members as their teams 
form and as they arrive on station and include efforts to 
ensure adequate supplies of clean water, functioning utilities, 
safe recreational facilities, especially for children, and 
competent administrators to manage cities, town, and regions. 
The combined efforts of these interagency teams serve to build 
provincial capacity, foster economic development, strengthen 
rule of law, and promote reconciliation.
    The main objective of the PRT program is to help the 
Islamic Republic of Afghanistan in partnership with local 
communities develop the capacity to identify and address issues 
of development, governance, and security in the outlying 
provinces. Development, governance, and security are three 
different missions with one common objective: a stable and 
prosperous Afghanistan.
    PRTs represent the leading edge in interagency operations. 
PRT commanders are trained to listen to what the community 
leaders need. The teams now in training will be the first units 
to fully benefit from the government of Afghanistan's 
Provisional Development Planning Process undertaken in 2007.
    Our predecessors have been working with local village 
leaders and provincial leaders to determine priority 
development projects. This will save valuable time and ensure 
that the teams do not reinvent the wheel.
    We stress the importance that development activities be led 
by Afghans. We understand that Afghanistan will never move 
forward without Afghans taking the lead, and this knowledge 
serves as the foundation of our investment in time to engage 
the Afghan communities and local officials to foster their 
ownership and buy in of development projects.
    It is just as important as actually constructing the 
schools or paving the roads. As one Afghan participant put it, 
``The overall process will build trust and improve the 
relations between the government and the public because, for 
the first time, we are involved in this practice with 
government officials.''
    One of the most successful aspects of the PRT program is 
the interagency cooperation between the military, USAID, U.S. 
Department of Agriculture, and the U.S. Department of State 
officials co-located in the PRT.
    I will skip my example on that one and conclude by saying 
that I would like to stress that we appreciate and understand 
that the most effective PRTs are those in which the military 
and civilians from across the interagency focus on joint 
decision-making and planning and carry out our respective 
civilian and military missions.
    We continue to learn and advance our understanding of how 
these teams can be most effective and transfer responsibility 
of their activities to Afghans and Iraqis to guarantee the 
long-term success in our efforts to help local communities find 
reconciliation, modernization, and transition to self-reliance.
    We are improving our interagency training for the next 
generation of officers going to the PRTs.
    Thank you for this opportunity, and I would be happy to 
take your questions.
    [The prepared statement of Mr. Hess can be found in the 
Appendix on page 40.]
    Dr. Snyder. We are going to let Mrs. Davis begin the 
questioning for us. I mentioned, I think, perhaps before she 
arrived that there is a lot of interest in several 
subcommittees of this Congress and committees of this Congress 
in doing something about this. There is interest in the 
memberships, also, and as some of you may know, Mrs. Davis and 
Geoff Davis, our colleague from Kentucky, have formed a working 
group on interagency reform, which is also part of this 
conversation.
    Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here. I am sorry this has 
got to be so terribly disjointed and that we do not have the 
benefit of more time with you, and I am going to have to leave 
for an appointment.
    Mr. Hess, just in talking about the issues that you just 
raised, one of the things that we know about USAID now is that 
you are not as well staffed as you were a number of years ago 
and that, in fact, there are a lot of contracts that you engage 
in, but that we have not really had the bench, we have not had 
the personnel that are trained and there and ready.
    Is what you were discussing? What else do really you need 
to make that effective and to enable this interagency process 
to move forward? Is there a need for more USAID, more trained 
people that can do that so that we do not rely on our military? 
Why hasn't that worked better? Help fill in the gap for us.
    Mr. Hess. There are a couple of questions, I think, that 
you have in there. What are we doing to improve and improve the 
bench strength? The administrator has submitted--I think you 
have seen it in the 2009 request--to increase the staffing of 
USAID, and there is a request in the 2009 budget, is the first 
step to increase the number of people. She has already taken 
the action to increase the staff above attrition hiring for the 
first time in, I think, 10 or 12 years. So she has recognized 
that effort, and we are moving on to hire more people in terms 
of basic fundamental staffing.
    In terms of the interagency, we have been working very 
closely with the Office of the Coordinator for Reconstruction 
and Stabilization (S/CRS) at the State Department. We have 
participated in all the sub-Policy Coordinating Committees 
(PCCs) and working groups to work better to try this 
interagency coordination. I have personally witnessed this, 
having served in Iraq in 1991 and Bosnia and Kosovo. We are 
committed to that interagency coordination. That was one of the 
reasons why we created the Office of Military Affairs, to 
ensure that those things happen.
    We have also worked with DOD very closely on putting senior 
development advisers with all the geographic combatant 
commands, except for Northern Command (NORTHCOM) so that we 
could further integrate our planning and coordination and work 
better and have more successful projects.
    So all of those things kind of work together.
    Mrs. Davis of California. What do you all see then included 
in terms of Congress's role here, and is it a budget 
connection? You know, there is really a disconnect in many ways 
in terms of what we are saying we need and the way we are 
actually budgeting. What role do you think Congress should be 
playing, or should we not engage in more national security, 
have a different committee that would go across jurisdictions? 
I mean, do you have a sense of what might be helpful to really 
task the different agencies to do this differently?
    Secretary Henry. I will start with that. I think if you 
would have asked us that three or four years ago, yes, we would 
say reorganize and make things easier and make it easier for us 
to deal with. I think we have come to a realization that 
reorganization is the easy part. The hard part is the thought 
process, the culture, how does one deal with that.
    Let me talk about some destructive things that we think are 
really helpful that Congress has done. These hearings, you 
know, are recognizing the problem. We think that with the 
staffs we have a certain degree of resonance, and now with the 
House on the issue, that the solutions are not found in the 
Defense Department.
    We happen to have extremely helpful committees of 
jurisdiction. They help fund us fairly robustly. We do not see 
the same mindset necessarily on supporting State activities, it 
does not seem to us, and to be able to start to look at 
national security, as I believe that State is in with Justice 
and some other organizations, and we feel very close to State 
and to the intelligence community and the military, to be able 
to start to look at them holistically in some sort of method. I 
am not sure it is reorganization of any sort, but it is an 
ability in being the mechanisms to be able to look across that.
    Within DOD, we have started to do things to be able to look 
at virtual budgets. So eventually, you know, in another year or 
so, if you want to do what we are doing in stabilization, we 
will be able to put the equivalent of a major force program 
together for stabilization or whatever you might want to look 
at. You know, we will be able to have the data mechanisms and 
accounting to be able to start to look at that. To a certain 
extent, if the Congress could start to look at what are we 
doing across national security, we think that would be helpful.
    Another helpful thing we think Congress has done is given 
us legislation in this last Defense Authorization bill to go 
out and do a study and to work with the nonprofits, somebody 
outside of government, to look at what some of the interagency 
problems are.
    This is something that our Secretary has got his head into. 
He has actually changed the contract we were putting out to 
include come up with a ``National Security Act of 2009.'' How 
would you do it? You know, 1947 worked for good for setting up 
a Cold War structure to be able to meet our national security 
interests. Going forward, what would it look like post-9/11?
    And so while we would not expect anybody to necessarily go 
out and adopt what they come up, it will start to generate a 
conversation. So we think that we are in the stage at the 
whole-of-government level of starting to do some 
experimentation. That is why, you know, we appreciate the 
support that we have with AFRICOM. Southern Command (SOUTHCOM) 
is reorganizing itself, bringing different components inside of 
the government to be able to do that, too. So this is a time we 
think really of experimentation.
    I personally am a little concerned that we would 
overcompensate, and looking at the lessons learned of 
Afghanistan and Iraq, PRTs worked very well there, but we do 
not have Non-Governmental Organization (NGO) engagement. The 
next place we go, NGOs could be a much bigger part of the 
equation. USAID might play, you know, a much more significant 
role then, and we might be relying on them more.
    So we think it is a very broad problem set that we are 
confronted with in the future. We happen to have two examples 
right now of a somewhat non-permissible environment, but we 
tend to think that there is a more military heavy end of how 
you meet that set of problems.
    There are other areas where we are going to want to try to 
go in and make a difference, eliminate ungoverned areas, where 
it might be more at the developmental end and the military is 
just playing a smaller supporting role.
    Mrs. Davis of California. Thank you.
    Secretary Pavel. I would just reinforce two particular 
points that I just think are critically essential from the 
Defense Department point of view, and one is just funding the 
needed capacities of the relevant civilian agencies, which our 
Secretary has been quite prominent in calling for recently, and 
then, two, just looking at things from across traditional 
boundaries in an integrated way as much as possible and maybe 
from as diverse a set of perspectives as possible would really, 
I think, help to strengthen the different approaches that we 
are taking and help us develop the capabilities that we need.
    Mrs. Davis of California. Do you want to keep going, Mr. 
Chairman?
    Dr. Snyder. Well, I was going to let you finish whatever 
you want to finish.
    Mrs. Davis of California. Mr. Hess, would you like to say 
something?
    Mr. Hess. No, ma'am. I think we have hit the points, and I 
think where we are going with the combatant commands is a step 
in the right direction.
    And we have been working very closely with our friends in 
Defense to make sure those are properly staffed, and we had 
people on the AFRICOM initial planning group and the transition 
group to ensure that that integration was happening, and that 
is how we plan on taking it to the next level.
    I think Ryan is right that, you know, Afghanistan PRTs and 
Iraq PRTs are good for today, but they may not be for the next 
one, and we work very hard and closely with the Lessons Learned 
Center out at Fort Leavenworth and with the Marines Lessons 
Learned Center and the Joint Forces Command (JFCOM) Lessons 
Learned Center to make sure that we are capturing those and how 
we can work more closely together.
    Mrs. Davis of California. Do folks around the table have a 
diverse perspective, or is that mostly Pentagon?
    Mr. Hess. Well, right now, it is predominantly military and 
predominantly uniformed military, but more and more we are at 
the table and able to influence it, and the Tactical Complex 
Assessment Framework (TCAF) model that I talked about, too--we 
train military units before they deploy on that Tactical 
Complex Assessment Framework.
    That is important because we know we cannot be everywhere 
on the ground, and if we can at least influence the activities 
of the planning process through that model, that is important, 
and the Army is looking at that model in particular and putting 
it into their doctrine.
    So we realize we have to work across the spectrum--
doctrine, planning, exercises--so that before units deploy, 
they know how to work with civilian agencies better. We are 
going to keep pushing that pretty hard.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Mr.--is it Pavel?
    Secretary Pavel. Yes.
    Mr. Akin. There seems to be a little bit here making my 
brain on Thursday afternoon struggle a little bit. We are 
talking about--that you are in charge of special operations 
that are low intensity. Somehow those do not seem to go 
together, but I guess my question is: Are you involved to some 
degree in overseeing some of the various preemptive kinds of 
things that we might be doing in places that most people had 
not heard of before, but there might be some problem and you 
are taking some action there?
    Secretary Pavel. Part of the responsibilities of the 
assistant secretary of defense for special operations low 
intensity conflict and interdependent capabilities now is----
    Mr. Akin. You have it down pretty good.
    Secretary Pavel [continuing]. Providing policy oversight of 
operational activities, you know, in whatever form, and those 
include the full spectrum of such activities from----
    Mr. Akin. More kinetic to less kinetic.
    Secretary Pavel. Exactly, yes. From the Defense Department 
point of view.
    Mr. Akin. So I think a whole lot of us have been seeing the 
fact that there needs to be a jointness beyond just the Navy, 
Air Force, and Army that needs to extend more broadly, and that 
seems to be shared my most people on the committee here and a 
lot of other places as well.
    I guess my question is not having that in place right now, 
how do you make decisions as to, ``I think we ought to go do 
this thing, but, over here, we better just stay clear of it,'' 
because you have to have a cultural context to put those 
decisions in? And is it your job and you have people that work 
for DOD that can help you that, or how does that process work 
right now?
    Secretary Pavel. I think this is a call often from the 
combatant commanders in the field who know the local conditions 
and the units under them who understand the different dynamics 
that are at play from those that would call for softer 
approaches as well as those that would call for harder 
approaches, and so our job is to provide the broad policy 
oversight back here, but not to get into the specific details 
of very specific operations that a combatant commander 
oversees.
    What we do try to do, however, is at that broad level link 
up policies and oversight for different agencies' capabilities 
that can be brought to bear and try to incorporate lessons 
learned into the policy oversight that we sustain on a pretty 
routine basis. But we do not get into sort of the specifics of 
combatant commanders' or tactical operational commanders' 
approaches for particular local circumstances.
    Mr. Akin. So the final decision is combatant commander 
basically?
    Secretary Pavel. It depends on the size of the challenge. I 
mean, obviously, if we are talking about a major combat 
operation that would be commencing, that is a national security 
decision and, obviously, can only be handled by the commander 
in chief. If you are talking about local issues in a contained 
way, then that becomes a much more local or regional----
    Mr. Akin. Combatant commander kind of thing?
    Secretary Pavel. Yes.
    Mr. Akin. Okay.
    Secretary Henry. Can I just take a stab at that, Mr. Akin, 
because----
    Mr. Akin. Sure.
    Secretary Henry. You are asking a very important question, 
and there are obviously places we are engaged in that have a 
lot of our attention, but how do we do things to avoid the next 
conflict, and that is something where we have been putting a 
lot of intellectual energy into. You might think of it as----
    Mr. Akin. The reason we ask it is because we as legislators 
always pass laws that have unintended consequences. I mean, we 
are experts at doing that, and so I am thinking you have to 
have that same problem, that you do something with good 
intentions, and yet, because of a cultural situation or 
something that you cannot foresee, it ricochets in a way you 
were not expecting. That is what I am----
    Secretary Henry. Yes, that is almost the law of nature, you 
know. No matter what you do, it is going to have some sort of 
unintended consequences. We are never going to hit the nirvana 
where everything is working the way we put things in place and 
everything worked out.
    There will always be sources of friction. I mean, we saw 
that with the end of the Cold War. You know, we eliminated the 
threat to the existence of this Nation, but we still have our 
hands full on security threats, and we would see the future of 
that. We do not see the need for national security going away 
in the foreseeable future.
    But to get to your point of how you do this, at the 
strategic level, that is something that is normally done inside 
the beltway here in the interagency process, coordinated by the 
National Security Council, and it is where do we want to put 
our emphasis, where do we need to be looking out in the future.
    For us, the driving factor is where are those ungoverned 
areas where bad things can fester and that we need to go in and 
eliminate them. And so the whole idea is to build up local 
capability, what we would refer to as effective sovereignty, 
for them to be able to work their problems out, and that is 
looked at at the National Security Council, which brings in the 
whole interagency.
    Then you shift to the theater. Once it is said we want to 
do something--and that is what Barry was speaking to--it is how 
do we put those things together in the theater. One of the 
things we have done in the Defense Department is ask the 
combatant commanders to stop just looking at how are you going 
to go out and fight these different fights that are potentials 
out there--and that is the way we have approached it in the 
past--and instead come in and give us a comprehensive plan on 
what you want to do with in your area to get end states that 
are to the benefit of our Nation and the folks that we work 
with. And in that process, we are bringing in our different 
partners in the interagency to be able to look at that.
    I would just like to say that we spent the last 50 years--
--
    Mr. Akin. Can I just stop you for a second? I do not want 
to put words in your mouth. Am I starting to hear you say that 
there was a time when we looked at it from a defense planning, 
that if we get in trouble with them, what do we have to do to 
kick them into shape or whatever your words were----
    Secretary Henry. Yes, sir.
    Mr. Akin [continuing]. Whereas now the perspective is more 
what is the long-term sense of vision for who this nation is, 
how they fit in, and how can we be helpful to them and 
encourage a good sense of peace and responsibility and 
community and all? Is that what you are saying?
    Secretary Henry. We have always looked at that. That is 
captured in the national security strategy regardless of what 
administration. They try to put that out. I think what we 
realize, though, is that we have to do it in a whole-of-
government coherent way, both at the national level, the 
regional level and then the tactical level, which is going to 
be tailored to individual circumstances.
    So we are putting together mechanisms where we can do a 
more coherent job of looking at that regionally on where we 
want to go.
    It might be food for thought. In the Department of Defense, 
we had to think 50 years--it took us 5 decades--to understand 
how we operate jointly and to get that down, and I think we 
have it down. We appreciate the help the Congress gives us, but 
we have religion on jointness is the way to go, and it is the 
name of Barry's area. He works in interdependent capability. If 
we become interdependent upon each other, we can do a much more 
effective job and everyone does not have to buy the same 
capability to be able to do it themselves. They can depend on 
others.
    We are coming to the realizations that in the interagency, 
the different departments, we have to be interdependent and 
operate that way and rely on each other's strength and have a 
seamless approach. But I would suggest to you if we are going 
to really meet the problem set that is out there, is we have to 
think about that, not just from a, you know, joint service or 
interagency.
    But we also have to think about our partners, and we are 
going to have to work with the European countries and those 
countries that are capable of exporting security to be able to 
bring them in. We are going to be a leader in how we learn 
this, but as you are thinking big term on how we put this 
together, to us, there is a very large international component. 
How do we bring the Japans, the Australias, the NATOs along?
    Mr. Akin. You know General Bell in Korea, sort of a shy and 
retiring sort of fellow?
    Secretary Henry. That is not the one we know, but----
    Mr. Akin. He made that point to us on a missile defense 
trip that we took about the significance of Korea and the 
jointness and an overall perspective of jointness, and so I 
understand.
    Secretary Henry. And we have it there, and our effort there 
is focused on the peninsula, but I am talking about--and that 
is good, and we need to have that--something where we can work 
with NATO as we are trying to do right now in Afghanistan, 
which is a Petri dish on how do we make this work, and it has 
not been frictionless, on how do we get our partners out there 
contributing to this, and, to be honest, we think that we are a 
couple of years ahead of them in understanding where one has to 
make the investments in your military capability.
    But, as you think about the big problem set, I just suggest 
that you do not forget the international component of this 
because we do not want to be the 911 force. The military does 
not want to be it, and I do not think we want the United States 
to be it either. We want to be able to work with others.
    That is a whole push that we are doing in AFRICOM. 
Everywhere else in the world, we think of our combatant 
commanders as being the leaders. In AFRICOM, we want to support 
the good efforts of others and not necessarily, you know, be 
the first one somebody looks to.
    So I hope that is helpful.
    Mr. Akin. It is pretty general, but I think I am getting 
your direction and your drift. Yes. Thank you.
    Mr. Hess. Mr. Akin, if I may add on to what Ryan was saying 
there and amplify it a little bit more, part of the reason we 
put these senior development advisers in the combatant commands 
is because we need to integrate how we operate. We are doing 
development, for example, on the continent of Africa all the 
time, and DOD units go down there and they build schools, 
clinics, roads, drill wells, and we think that if we better 
integrate those programs that we will have more success. I 
mean, obviously, the combatant commanders have been engaged in 
their theaters to try and prevent conflict for a long time, and 
we need to amplify that.
    And another example of that is we have an Office of 
Conflict Management and Mitigation where we work very closely 
with our colleagues in DOD and State to try and look at those 
ungoverned spaces or areas where we might see extremism or 
instability to identify those factors and try and eliminate 
them or at least develop programs for, for example, disengaged 
youth, folks like that.
    And so we are working more closely together, and I think 
AFRICOM is a step in the right direction. Certainly, Southern 
Command is as well. We believe in getting out there ahead of 
the game, and that is why we created the Office of Military 
Assistance, so that we have a single point of contact where we 
can work together on these issues specifically.
    Mr. Akin. Good. Thank you very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Akin.
    I wanted to mention first, too, we have had a lot of 
interest by Chairman Skelton about this, and he is hopeful that 
sometime relatively soon we will have a full committee 
hearing--and he is hoping to have both Secretary Gates and 
Secretary Rice there--just to focus on this issue.
    Ambassador Mull had to leave us, but he was kind of brought 
in at the last minute, and we were pleased to have him. He 
recognized he probably was not the best person in the State 
Department to come in on the topic, but we had some frustration 
about, you know, what level person and what job they are 
occupying should be participating in this kind of hearing.
    But I think it is just part of this whole discussion, which 
is that, you know, at what levels are we going to have these 
kinds of discussions, which leads me to this question. And I do 
not want to overread, you know, one sentence in each of your 
statements here, Mr. Henry and Mr. Hess.
    On page two of your statement, Secretary Henry, you say, 
``To realize this goal may require some bureaucratic 
restructuring and will require larger cultural shifts causing 
us all to step away from our institutional biases and make the 
system more coherent on a national level.''
    And then, Mr. Hess, in your opening statement, you say, 
``There is no denying that civilian and military organizations 
can be quite different, but there are now proven ways to bridge 
these two cultures.''
    And I cannot disagree with, you know, anything either of 
you say in those statements, but they are not synonymous 
statements. I think I would come down more on the side of Mr. 
Henry's statement, again, without overreading into one sentence 
out of a very complicated topic.
    But the implication, I think, that I picked up from yours, 
Mr. Hess, is that, yes, we have two different cultures out 
there. I would probably say there is a culture for every 
organization--USAID has one, and State Department has one, and 
the military has one--but that is okay if those cultures 
continue as long as every so often, when something flares up, 
we have a way to reach across.
    I think the experience that we are having here is that--and 
what has led to a whole lot of people, before we ever started 
looking at this, to conclude that will not work very well--that 
by the time you figure out how to build bridges at a time of a 
new conflict, you have lost a lot of time, and you have lost 
opportunity, and so that is why, I think, maybe Secretary 
Henry's is bigger.
    Doesn't there need to be the cultural change so that you do 
not have to bridge cultures? Recognizing there are different 
tasks and different jobs and being an infantryman is a whole 
lot different than being a USAID, you know, observer of what 
local contractors are doing or something. But there needs to be 
more of a merger of the cultures or more compatibility with 
cultures so you do not have to try to reinvent this bridge 
every time you come to a new conflict.
    And I do not want to overread one sentence, but I think in 
a way it does get at some of the heart of the problem.
    Any comments you want to make, Mr. Hess?
    Mr. Hess. Sure. I may need to relook at my sentences and 
how I write them, but----
    Dr. Snyder. Somebody actually reads them, you know.
    Mr. Hess. Absolutely. That is good. I am glad you did.
    It is interesting. Right after I started on this, we were 
creating the Office of Military Affairs. We created it for that 
reason, because we knew that we had to start bridging this.
    USAID has worked with the military on and off for years. 
You can go back to Vietnam. You can go back to even before 
that. The reason we did that was to formalize that 
relationship. We recognized this relationship exists, and it is 
going to continue to exist. We can do it on an ad hoc basis, or 
we can do it on a formal basis, and that is why we did the 
Office of Military Affairs, so we could take that to the next 
level.
    Right after we formed the office, we went over and the 
current administrator Andrew Natsios went over and met with the 
Deputy Secretary of Defense Gordon England, and they talked 
about the cultures. The cultures between AID and the military 
are a lot closer than you would probably recognize. USAID 
people are very goal oriented, very task oriented. They 
implement things. They want to get the job done, just like the 
military does. And so I do not think the cultures are all that 
far apart.
    I have visited most of our missions, at least in the 
troubled areas of the world, and the mission directors there 
understand that they need to work with the military. What we 
have to do is give them the framework and the boundaries and 
where we are going to work within that. That is, again, why we 
created the Office of Military Affairs--was to help design that 
policy framework, and we are doing right now.
    Probably within a month, we will have a USAID policy on how 
we will do civ-mil operations so that we can define those 
boundaries and where we can work because we owe that to our 
missions to provide them a framework because they are going to 
do it and they do it all the time.
    But the other thing that we have to look at is how does the 
military approach us. For example, in a country, who is there 
to interface with that mission director? In some cases, it is 
just a defense attache who has other assignments as ordered, 
and so we may not be able to do the interface that we need to 
do to implement our programs and coordinate those as 
effectively as we could, and that is why we have been looking 
at other structures with the military on how we could better do 
that because we need people on the ground who could help 
coordinate and implement our programs in the field.
    We have a long way to go, but I do not think the cultures 
are all that far apart, having been now in both of them.
    Dr. Snyder. Let me pick at that a little bit more. We have 
had both hearings and private discussions with people who have 
participated in PRTs, both military and civilian. One of the 
things that came out as we started looking at these PRTs is--I 
forget exactly who it was--in fact, we heard it from more than 
one person--that while we have PRTs in Iraq and we have PRTs in 
Afghanistan--these were from people now who had worked these 
things--they felt like they were so dramatically different they 
ought to not even have been called the same thing--the missions 
and how they went about doing it, their focus.
    They felt, I guess, to summarize it, the PRTs in 
Afghanistan really early on got focused on building things, 
projects, kind of things. In Iraq, it is more of a capacity 
building in terms of local governance, and yet we call on PRTs 
as if they are the same thing. So I may say maybe one is 
learning from the other. I might say, though, that you created 
the bridge between the cultures, and the bridge ended up to be 
a different kind of a bridge.
    Now maybe that is overreading that metaphor again, but it 
does bring home that we are thinking we may need to be spending 
a whole lot of time working at this now so that we do not have 
to kind of invent our solution each time out of whole cloth, 
that there is always going to be modifications based on local 
situations. But we really ended up with some fairly 
dramatically different approaches in those situations.
    Am I off base there?
    Mr. Hess. I think there was a structure created so that 
there could be an interface and an interaction. You are right. 
The goal may end up differently because of the different needs 
in the situation. In Iraq, where we do focus a lot on capacity 
building, sort of the local governance aspects, then that is 
going to have the predominance, and that is where we are going 
to put the weight of our effort.
    But the fact of the matter is we created a structure and a 
mechanism where that interface can take place. That is the 
important thing, and I think whether you call it a PRT--we used 
to call them civil-military operations centers (CMOCs) when I 
was in the military--whatever you call it--I used to say it 
does not make any difference what we call it, it is the 
concept, it is how you think about the problem set, how you 
engage your partners in looking for a solution to that problem 
set.
    Once we create that, then we succeed, whether we are going 
to call it a CMOC, a PRT, whatever we are going to call it. I 
think the name is irrelevant as long as we can create a 
structure where we can talk and engage and look at where the 
priorities ought to be and where the emphasis ought to be. If 
it is going to be reconstruction, we will do reconstruction 
because the infrastructure is lacking. If it is going to be 
building local governance, then we will do that.
    Dr. Snyder. Do you have any comment, Secretary Henry?
    Secretary Henry. Well, I do not think our statements are 
incompatible. They are not synonymous. I agree with you. I do 
not think they are incompatible.
    I think I was speaking to a larger institutional approach. 
I think we do on the ground have mechanisms that are working, 
and I guess listening to the discussion, I am just continually 
reminded that--in getting ready for this, I went back and 
looked at the statements before your subcommittee by somebody 
that I respect a lot, Carlos Pascual, and I think he was right 
on on the way he described things.
    When we get people in the field and they work together 
toward a common goal, our feeling is, in the field, they can 
work interagency a lot of times much much better than we can 
inside the beltway. So I am a little surprised to hear the 
comments from your constituent because the feedback we are 
getting is the teams work well together.
    When you start to feed into their institutional stovepipes, 
that is where some of the conflicts come. So what we would 
really like to do is to be able to operate at the theater 
level, and here at the Washington, D.C., level, as well, as 
they tend to out in the field. The point Carlos made is that if 
the first time you are trying to work together is when you are 
in a crisis situation, there is going to be a clash of 
cultures.
    We think in Iraq and Afghanistan we are in the process of 
having worked through those. We know a lot. The feedback we are 
getting is the commanders love the PRTs, even though we put the 
same label on different goals that we are trying to get from 
the two of them. I think we did that a little from the 
perspective that it would be easier for people to know what we 
are trying to accomplish.
    PRT is a brand for the interagency working together at the 
boots-on-the-ground level locally, and so we kept that brand 
name. But we think we have to have instances where we regularly 
interface with the developmental side, the diplomatic side, and 
the defense side, and, again, Carlos laid out some suggestions 
on where institutional investments can be made, again, through 
the support of our committees of jurisdiction, we have been 
able to do things to train our people, to give them different 
enrichment opportunities, where they can get out and spend a 
lot of time exercising and training.
    We need to be able to do that with our partners on the 
diplomacy and development side, and so we are used to working 
together, and----
    Dr. Snyder. And one of the points Secretary Gates has made 
on behalf of USAID and the State Department is your 
organizations do not have the kind of redundancy you need to be 
able to have the luxury of going out and doing that kind of 
training. We pull you all over the place, particularly for the 
last seven or eight years.
    We are going to shut down here fairly quickly. You all have 
been so patient.
    But you made the comment, Secretary Henry, consistent with 
Secretary Gates about the--and then you talked about it, too, 
Mr. Hess--call for additional resources and personnel for both 
USAID and the State Department and the issue of how much is 
this a resource issue for this end of the table, the State 
Department, USAID, and how much is a reform issue. I am one of 
those that will be very supportive. You know, if we did nothing 
more than give additional personnel, I just think that we have 
cut the State Department and USAID too much. On the other hand, 
there are people who say you better be paying attention to the 
stovepipes and what is going on up there, you are not going to 
get the bang for the buck that you want.
    Do you have any comments about that, Mr. Hess?
    Mr. Hess. I think it certainly is a resource issue, first 
of all. We are working on the cultural issues and the mission 
issues. As I have indicated, the majority of the people with 
whom I have worked in the agency understand that this is a new 
era where we have to work with our partners in the military if 
we are going to be successful. We have always worked very 
closely with the State Department, so that is not an issue. But 
it is got to be an interagency if we are going to succeed at 
this.
    That cultural aspect is being institutionalized, as I 
mentioned, in our policy reform. By putting this into policy 
and looking at issues like promotions for senior Foreign 
Service officers--I mean, when we talk about jointness, what 
really got Goldwater-Nichols institutionalized was the 
promotion requirement. Then people had a self-interest and a 
vested interest in going at that.
    We are going to do the same thing within the agency on 
promoting people based on or making it a precept for promotion 
that they would have an interagency assignment. Then you know 
that it is real and it is going to stay and it is going to be a 
lasting institutional change. And we are moving forward to make 
those changes within the institution so that they can get to 
the reform issue as well.
    So I think it is both issues, and I think we are moving 
forward on both fronts.
    Dr. Snyder. Gentlemen, I appreciate you being here. I 
appreciate your patience with us this afternoon.
    I think probably almost for sure we will have some 
questions for the record, and if you can respond to those in a 
timely fashion. Every once in a while this happens, that we get 
interrupted. It generally does not happen as devastatingly as 
today because there really were some disappointed members, as I 
said, actually from other full committees that were interested 
in attending if we had been able to have it at 2:00.
    But thank you for your patience, and we look forward to 
work with you on these issues.
    And we will be adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]



=======================================================================




                           A P P E N D I X

                           February 14, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2008

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 14, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Mr. Henry, a number of commentators have cited an over-
reliance on DOD in times of crisis when, perhaps, other instruments of 
national power--diplomacy, economic measures, or effective strategic 
communications--would have been more effective. Do you share this view 
and if so, what specific changes can be made and by whom to the 
interagency process that would strengthen the ``voice'' of non-DOD 
agencies and enable non-military solutions or solutions where the 
military is only in the supporting role?
    Secretary Henry. Secretary Gates has played a leading role in 
advocating for increased civilian capacity. As he stated in his speech 
at the Center for Strategic and International Studies, the ``military 
and civilian elements of our national security apparatus have responded 
unevenly and have grown increasingly out of balance.'' On April 15, he 
and Secretary Rice testified before the HASC that if State is to be the 
lead agency for our foreign policy, it must be given the authorities 
and resources commensurate with that mission.
    DOD supports a number of initiatives to increase the capabilities 
of civilian agencies and develop whole-of-government planning processes 
to apply all USG capabilities in a efficient, effective, and unified 
manner in the achievement of national goals. Such efforts include:

        -  NSPD-44 ``Management of Interagency Efforts Concerning 
        Reconstruction and Stabilization'', particularly the 
        President's FY09 budget request for $248.6M for the State 
        Department to build expeditionary capacity at eight civilian 
        agencies through the Civilian Stabilization Initiative (CSI). 
        CSI will provide trained, equipped, and mission-ready civilian 
        experts who can partner with the U.S. Armed Forces in an 
        integrated fashion, applying multiple elements of national 
        power to meet national security imperatives.

        -  National Counterterrorism Center's efforts to employ 
        diplomatic, financial, intelligence, and law enforcement 
        capabilities in support of the 2006 National Strategy for 
        Combating Terrorism.

        -  HSPD-8 ``National Preparedness'' Annex I, directing the 
        establishment of a standard, coordinated set of plans by all 
        levels of government to enhance our national all-hazards 
        preparedness.

    At the same time, Secretary Gates made clear in his April 15 
testimony that today's threats require a shift in understanding about 
the tools needed by the U.S. military to fulfill its core security 
responsibilities. Secretary Gates has also emphasized that DOD must 
enhance its traditional capabilities to provide humanitarian relief, 
establish stability, restore governance, and foster economic 
development immediately following conflict. While these are military 
missions, they must be accomplished in close cooperation with State, 
which has broader regional expertise and understanding of U.S. foreign 
policy objectives. The Global Train and Equip (``Section 1206'' 
Authority) offers a model for interagency coordination that makes the 
Secretary of State and the Secretary of Defense co-equal decision 
makers by law. We should seek to build on tools like 1206 to create an 
interagency architecture that can address complex challenges.
    Dr. Snyder. Mr. Henry, how satisfied are you that OSD, DOD and the 
Services really accept the critical role that effective interagency 
coordination and planning must play for success? What steps has DOD 
taken to implement the 2006 Quadrennial Defense Review's recognition 
that national security challenges often require interagency solutions? 
Can you outline the work that's being done as a result of the Building 
Partnership Capacity Roadmap? What has the DOD's Office of Policy done 
to implement that roadmap?
    Secretary Henry. Across the board the Department recognizes the 
critical role interagency coordination and planning have in ensuring 
the USG meets its national security objectives. All relevant components 
of the Department are actively engaged in improving interagency 
processes and DOD's involvement in them.
    The Department has made considerable progress in many areas of the 
Building Partnership Capacity Roadmap (BPC). The Department has made 
significant strides in supporting the strengthening of interagency 
planning and operations. DOD has also participated in the establishment 
of the National Security Professional program and the development of 
national planning processes for combating terrorism, homeland security, 
and reconstruction and stabilization. Additionally, DOD has facilitated 
increased civilian agency input into DOD's planning processes.
    Building partner security capacity is a fundamental military 
mission. In order to complete fully the actions called for in the BPC 
Roadmap to enhance the capabilities of, and cooperation with, 
international partners, DOD seeks Congressional support for several 
legislative initiatives and appropriations enabling the U.S. military 
to build secure partners. Many of these initiatives are novel in 
proposing to capture appropriate interagency roles, including Secretary 
of State or Chief of Mission concurrence, in law.
    In particular, DOD seeks to make the Global Train and Equip 
authority permanent, expand the authority to include partner security 
forces, and increase the limit of the authority to $750M. DOD also 
seeks extension and expansion of the Security and Stabilization 
(Section 1207/1210) authority; expansion of the Overseas Humanitarian, 
Disaster Assistance, and Civic Aid (OHDACA) program to include 
stabilization activities; enhancements to DOD fellowship, regional 
center, and other partner education, training, and support programs; 
and other legislative proposals designed to increase our military's 
ability to build partner capacity. When matched with the proper 
appropriations, these enhancements to DOD authorities will provide the 
U.S. military with the tools needed to help build more effective 
security partners while reducing the burdens on our forces.
    Dr. Snyder. Mr. Henry, can you comment on how the Joint Interagency 
Coordination Groups that the Combatant Commanders are establishing are 
working? Has DOD, as a result of the Building Partnership Capacity 
Roadmap, issued guidance on the role and staffing for Joint Interagency 
Coordination Groups, the placement, role, and staffing of Department of 
State Political Advisors and the placement of OSD advisors at the 
Combatant Commands? It seems to me the role and placement of these 
advisors is intended to improve operational-level interagency unity of 
effort. Please give us examples of the progress being made.
    Secretary Henry. Each of the Geographic Combatant Commands (COCOM) 
has established a Joint Interagency Coordination Group (JIACG) to 
assist with liaison and planning at the operational level. The 
structure of the JIACGs varies based on the COCOM's priorities and the 
participation of interagency personnel. All COCOMs have noted that 
other Federal Agencies have difficulty providing qualified liaisons to 
JIACGs on a permanent basis. DOD does not want to impose a one-size-
fits all approach. Rather, we recommended that the COCOMs tailor their 
JIACGs for regional missions.
    To improve interagency coordination, the COCOMs work through OSD, 
and in some cases directly with, other agencies to coordinate 
activities. Beyond the establishment of U.S. Africa Command, some other 
examples are illustrative:

        -  U.S. Southern Command has established a J9 staff section 
        that includes the JIACG liaisons as well as military staff to 
        coordinate interagency efforts. In the context of SOUTHCOM's 
        operational environment and focus, this approach works well.

        -  U.S. Northern Command's mission and location uses a 
        different approach--using direct liaison with Federal agencies 
        as well as a JIACG.

        -  U.S. European Command and U.S. Pacific Command both employ 
        JIACGs for interagency planning, and participation is tailored 
        to their respective missions.

    It is important to note that DOD is currently funding interagency 
participation in JIACG organizations. It may be more effective for 
other Federal Agencies to program and fund JIACG personnel, creating a 
more stable personnel management method and expanding the pool of 
qualified interagency planners and operators. The Department supports 
current Department of State initiatives to expand its capacity, 
including selective placement of Political Advisors with military 
units. We believe these are important steps to improve interagency 
integration.
    Dr. Snyder. Mr. Henry, while we have seen that a big part of the 
problem with the interagency process is how various agencies react to 
particular crises once they are underway, another big, and often 
overlooked, part of the equation is the interagency planning framework. 
Do you have any thoughts on how that might be more constructively 
structured and developed? Why hasn't the framework developed under 
NSPD-44 been used?
    Secretary Henry. A key challenge in any interagency operation is to 
unify various funding streams, Congressional Committee jurisdictions, 
agency plans, and bureaucratic cultures to have an aggregate effect on 
the problem--that is done through unified strategic- and operational-
level planning, which the Executive Branch is working to improve.
    As such, DOD supports the development and use of whole-of-
government planning frameworks to facilitate civilian agency 
integration into military planning and vice versa. In particular, DOD 
supports the State Coordinator for Reconstruction and Stabilization in 
the development of a U.S. Government Planning Framework for 
Reconstruction and Stabilization as part of NSPD-44 implementation. 
That framework is:

        -  Being tested through experiments and exercises with 
        Combatant Commands and across the USG. It will be revised based 
        on those results.

        -  Designed to address planning for a major response that 
        requires significant and complex humanitarian, security, 
        reconstruction, governance, and economic efforts utilizing 
        civilian and military instruments of power.

        -  Intended for use in contingency planning and crisis response 
        planning.

        -  Designed according to universally agreed-upon planning steps 
        and accounting for an iterative planning process between higher 
        and lower level organizations.

    Recent changes to DOD planning guidance also ensure a more holistic 
look at planning by:

        -  Moving the Department away from an exclusive focus on 
        contingency-driven planning by tasking COCOMs to develop 
        campaign plans. These campaign plans will provide an 
        opportunity for greater coordination and synchronization of USG 
        activities to shape the current security environment in order 
        to prevent potential threats to our national security interests 
        from developing.

        -  Ensuring that stabilization and reconstruction concerns are 
        highlighted in contingency planning.

        -  Encouraging interagency cooperation in the development of 
        military plans. DOD is working with interagency partners on 
        selected plans already. As these efforts progress, DOD will 
        identify best practices and incorporate lessons learned into 
        future guidance. We are grateful to the State Department for 
        the input it has provided on selected plans.

    Dr. Snyder. Mr. Henry, GAO testified before the subcommittee that 
DOD's efforts to implement DOD Directive 3000.05 have been hampered by 
a lack of guidance from your office on how to identify and prioritize 
needed stability operations capabilities. Has guidance been given? Has 
the Under Secretary of Defense developed a list of priority 
capabilities? Has your office given guidance on developing measures of 
effectiveness to be used in evaluating progress in meeting the 
directive's goals?
    Secretary Henry. DOD Directive 3000.05 provides broad policy 
guidance for various DOD components to adapt processes and develop 
capabilities accordingly. DOD's approach has been to focus on updating 
strategic-level guidance documents and working through the formal 
capabilities development process to ensure stability operations and 
irregular warfare considerations are included in the analysis agenda 
that informs our Department-wide capabilities analysis efforts. 
Thereby, DOD components, including Combatant Commands, are instructed 
to incorporate stability operations considerations in the planning and 
conduct of operations.
    The Office of the Deputy Assistant Secretary of Defense for 
Stability Operations Capabilities is working with the Services to 
identify and prioritize the ``full range'' of capabilities required for 
irregular warfare and stability operations and their doctrine, 
organizations, training, materiel, leadership and education, personnel, 
and facilities implications.
    As an integral part of capability development, for both U.S. and 
international partners, Combatant Commands provide information to the 
Department on the capabilities needed to conduct their mission through 
the standardized Integrated Priority List (IPL) process. These 
requirements are assessed in program development across all Combatant 
Commands using a prioritization process that seeks to balance risks. 
Each Combatant Command has priorities unique to the nature of its 
region. DOD does not expect that each Combatant Command will submit the 
same requirements or priorities, but instead expects each to provide an 
assessment of their requirements across the spectrum of capabilities.
    Dr. Snyder. Mr. Henry, can you comment on how the President's FY 
2009 budget reflects implementation of the policy to make stability 
operations as important as combat operations in terms of doctrine, 
organization, training, material, leadership and education, personnel, 
and facilities?
    Secretary Henry. DOD will not be creating separate stability 
operations budget lines, but rather driving a shift in capability 
development priorities. DOD is working through existing capabilities 
development processes to determine future needs. A critical element of 
that process will be determining those adaptations made in response to 
Operation Enduring Freedom and Operation Iraqi Freedom and funded 
through supplemental appropriations that need to be institutionalized 
for this new environment.
    The Office of the Secretary of Defense is working with the Services 
and Combatant Commands to identify and prioritize the ``full range'' of 
capabilities required for Irregular Warfare and Stability Operations to 
include their DOTMLPF implications.
    In his recent testimony regarding the FY09 budget, the Secretary of 
Defense highlighted a theme running throughout the FY09 budget request: 
ensuring the Department is prepared to address the international 
landscape characterized by new threats and instability. Specific budget 
requests highlight this change:

        -  Increased End Strength: increasing Army size by 7,000 over 
        and Marine Corps by 5,000 over FY08 levels enabling the 
        Department to relieve stress on the force caused by the Long 
        War and ensuring it is able to excel at conventional warfare 
        and counterinsurgency operations. (Personnel)

        -  Global Train and Equip: providing commanders a means to fill 
        longstanding gaps in our ability to build the capacity and 
        capabilities of partner nations. (Authorities)

        -  Security & Stabilization Assistance: allowing the Department 
        to transfer up to $200 million to the State Department to 
        facilitate whole-of-government responses to stability and 
        security missions. (Authorities)

        -  AFRICOM: funding to launch the new Africa Command, allowing 
        the Department to have a more integrated approach. 
        (Organization)

        -  Foreign Languages: providing for increased language training 
        for all forces to improve preparation for irregular warfare, 
        training and advising missions, humanitarian efforts, and 
        security and stabilization operations. (Training)

    Dr. Snyder. Mr. Henry, how is implementation of DOD Directive 
3000.05 affected by Secretary England's direction to Assistant 
Secretary Vickers to rewrite the directive as a directive on irregular 
warfare? Does the decision to rewrite DOD Directive 3000.05 mean that 
the policy establishing stability operations as a core mission 
comparable in priority to combat operations is being changed?
    Secretary Henry. The 2006 Quadrennial Defense Review identified the 
need to rebalance capabilities across the Department to improve joint 
force proficiency in countering irregular challenges. To implement the 
vision of the QDR, the Department developed implementation roadmaps for 
building partnership capacity, irregular warfare, and supporting DOD 
processes. DODD 3000.05, which pre-dates the 2006 QDR, provided 
influential foundational concepts for Departmental programs to counter 
irregular challenges.
    Last summer, the Department reported on the progress of DODD 
3000.05 initiatives to give stability operations a priority comparable 
to combat operations. These initiatives informed Department-wide 
concepts for defeating irregular challenges by working with and through 
the indigenous population and legitimate government to isolate and 
defeat irregular adversaries. As DOD worked to enhance relevant 
capabilities, significant synergies across capabilities became evident.
    The Department is now developing a directive to capitalize on these 
synergies, establish capstone policy for irregular warfare 
capabilities, and describe the relationship among key activities, 
including stability operations. In so doing, the directive will 
integrate the key lessons learned from the QDR Execution Roadmaps, DODD 
3000.05, and best practices from current operations. It will 
synchronize capability development across a wider range of operational 
environments--permissive, contested, and denied. This approach will 
help DOD maintain readiness for more contingencies--and provide the 
nation with more strategic alternatives.
    Recognizing that stability operations are essential to traditional 
warfare, irregular warfare, and a range of activities that are not 
characterized as warfare per se, the Department continues to develop 
initiatives under the auspices of NSPD-44 and other interagency 
authorities. Our strategic guidance reflects this view, and recognizes 
that in many cases unified action across multiple government agencies 
is crucial to enduring success. DOD remains engaged with our 
interagency and international partners to create synergies among our 
capabilities and synchronize their application in pursuing national 
security objectives.
    Dr. Snyder. A number of commentators have cited an over-reliance on 
DOD in times of crisis when, perhaps, other instruments of national 
power--diplomacy, economic measures, or effective strategic 
communications--would have been more effective. Do you share this view 
and if so, what specific changes can be made and by whom to the 
interagency process that would strengthen the ``voice'' of non-DOD 
agencies and enable non-military solutions or solutions where the 
military is only in the supporting role?
    Secretary Pavel. The Department is in agreement regarding the need 
to increase the U.S. Government's non-military capability and capacity 
to more effectively and efficiently address current national security 
threats and opportunities. DOD supports a number of initiatives to 
support increased capabilities of civilian agencies and the development 
of whole-of-government planning processes to apply all USG capabilities 
in a efficient, effective, and unified manner to achieve national 
goals, to include:

        - NSPD-44 ``Management of Interagency Efforts Concerning 
        Reconstruction and Stabilization'', particularly the 
        President's FY09 budget request for $250M for the State 
        Department to build expeditionary capacity at eight civilian 
        agencies through the Civilian Stabilization Initiative (CSI). 
        CSI will provide trained, equipped, and mission-ready civilian 
        experts who can partner with the U.S. Armed Forces in an 
        integrated fashion, applying all elements of national power to 
        meet national security imperatives.

        - National Counterterrorism Center's efforts to employ 
        diplomatic, financial, intelligence, and law enforcement 
        capabilities in support of the 2006 National Strategy for 
        Combating Terrorism.

        - HSPD-8 ``National Preparedness'' Annex I, directing the 
        establishment of a standard, coordinated set of plans by all 
        levels of government to enhance our national all-hazards 
        preparedness.

    Appropriate resourcing of civilian agencies commensurate with the 
extent of the requirements and the agility needed to meet today's 
threats is essential to achieving the ambitious and laudable goals of 
these above efforts.
    Dr. Snyder. While we have seen that a big part of the problem with 
the interagency process is how various agencies react to particular 
crises once they are underway, another big, and often overlooked, part 
of the equation is the interagency planning framework. Do you have any 
thoughts on how that might be more constructively structured and 
developed? Why hasn't the framework developed under NSPD-44 been used?
    Secretary Pavel. A key challenge in any interagency operation is to 
unify various funding streams, Congressional Committee jurisdictions, 
agency plans, bureaucratic cultures, etc., to have an aggregate effect 
on the problem--that is done through unified strategic- and 
operational-level planning, which the Executive Branch is working to 
improve.
    As such, DOD supports improvement of whole-of-government planning. 
In particular, DOD supports the State Coordinator for Reconstruction 
and Stabilization in development of a U.S. Government Planning 
Framework for Reconstruction and Stabilization as part of NSPD-44 
implementation. That framework is:

        - Being tested through experiments and exercises with Combatant 
        Commands and across the USG. It will be revised based on those 
        results.

        - Designed to address planning for a major response that 
        requires significant and complex humanitarian, security, 
        reconstruction, governance, and economics efforts utilizing 
        civilian and military instruments of power.

        - Used for contingency planning and crisis response planning.

        - Designed according to universally agreed-upon planning steps 
        and accounting for an iterative planning process between higher 
        and lower level organizations.

    Recent changes to DOD planning guidance also ensure a more holistic 
look at planning by:

        - Moving the Department away from an exclusive focus on 
        contingency-driven planning by tasking COCOMs to develop 
        steady-state campaign plans. These steady-state campaign plans 
        will provide an opportunity for greater coordination and 
        synchronization of USG activities to shape the current security 
        environment in order to prevent potential threats to our 
        national security interests from maturing in and emanating from 
        weak and fragile states.

        - Ensuring that both stabilization and reconstruction concerns 
        are highlighted in contingency planning.

        - Reaching out to the Department of State and other civilian 
        agencies to help make more realistic and holistic assumptions 
        about potential field activities, and to better identify 
        issues/questions that can be resolved or better prepared for 
        with advance discussion in Washington prior to a contingency.

    Dr. Snyder. In May of 2007, President Bush named Lt. General 
Douglas Lute as assistant to the President and Deputy National Security 
Advisor for Iraq and Afghanistan. In that position, Lt. General Lute 
was charged with coordinating the efforts of the Executive Branch to 
support our commanders and senior diplomats on the ground in Iraq and 
Afghanistan. Could you comment on the effectiveness of that position to 
date, and why you believe it was necessary to create this position? 
What is wrong with the interagency structure that required ``ad hoc'' 
corrections? Have those conditions changed? Are there more ``war 
czars'' in our future?
    Secretary Pavel. Based on the size and complexity of the crisis or 
issue, it is sometimes necessary to have a high-level individual 
dedicated to overseeing the task at hand. Such an action does not 
necessarily indicate a flaw in the system, but rather can be an 
appropriate response to ensure critical USG goals are met.
    Dr. Snyder. The Defense Science Board made recommendations to the 
Secretary that DOD's policy to put stability operations on equal 
footing with combat operations would involve a massive transformation 
that required sustained senior executive level involvement, management, 
and focus and suggested that the transformation needs an ``agent of 
change'' at a sufficiently senior level. The DSB specifically conducted 
that a Deputy Assistant Secretary level official was of insufficient 
rank to lead the transformation. Who is DOD's agent of change for 
stability operations and what was the rationale for that decision?
    Secretary Pavel. The Office of the Assistant Secretary of Defense 
for Special Operations/Low-Intensity Conflict and Interdependent 
Capabilities as established through the reorganization of Policy last 
year is an integrated, single policy advocate for needed priority 
capabilities for the future force. This office is best placed to 
develop a strategically balanced mix for Irregular Warfare, Stability 
Operations, and future state adversaries.
    In addition, Directive 3000.05 led to the creation of two DOD 
offices to advocate for enhanced capability in stability operations, in 
Policy and on the Joint Staff, J-5:

        -  Office of the Deputy Assistant Secretary of Defense for 
        Stability Operations; and

        -  Joint Chiefs of Staff Stability Operations Division.

    The fundamental logic behind the Policy re-organization, however, 
is that capabilities can be applied across a wide range of conditions. 
The efforts of these offices can be applied to the range of IW-related 
mission sets. For example, the DASD for Stability Operations 
Capabilities is leading a Department-wide review of the capabilities 
required to ``Train, Advise, Assist'' (TAA) foreign security forces. 
Such capabilities have obvious applications across the spectrum of 
operations.
    Dr. Snyder. Can you comment on how the President's FY 2009 budget 
reflects implementation of the policy to make stability operations as 
important as combat operations in terms of doctrine, organization, 
training, material, leadership and education, personnel and facilities?
    Secretary Pavel. DOD will not be creating separate stability 
operations budget lines, but rather driving a shift in capability 
development priorities. DOD is working through existing capabilities 
development processes to determine future needs. A critical element of 
that process will be determining those adaptations made in response to 
OEF/OIF and funded through supplemental appropriations that need to be 
institutionalized for this new environment.
    The Office of the Secretary of Defense is working with the Services 
and Combatant Commands to identify and prioritize the ``full range'' of 
capabilities required for Irregular Warfare and Stability Operations to 
include their DOTMLPF implications.
    In his recent testimony regarding the FY09 budget, the Secretary of 
Defense highlighted a theme running throughout the FY09 budget request: 
ensuring the Department is prepared to address the international 
landscape characterized by new threats and instability. Specific budget 
requests highlight this change:

        - Increased End Strength: increasing Army size by 7,000 over 
        and Marine Corps by 5,000 over FY08 levels enabling the 
        Department to relieve stress on the force caused by the Long 
        War and ensuring it is able to excel at conventional warfare 
        and counterinsurgency operations. (Personnel)

        - Global Train and Equip: providing commanders a means to fill 
        longstanding gaps in our ability to build the capacity and 
        capabilities of partner nations. (Authorities)

        - Security & Stabilization Assistance: allowing the Department 
        to transfer up to $200 million to the State Department to 
        facilitate whole-of-government responses to stability and 
        security missions. (Authorities)

        - AFRICOM: funding to launch the new Africa Command, allowing 
        the Department to have a more integrated approach. 
        (Organization)

        - Foreign Languages: providing for increased language training 
        for all forces to improve preparation for irregular warfare, 
        training and advising missions, humanitarian efforts, and 
        security and stabilization operations. (Training)

    Dr. Snyder. DOD witnesses testified that measuring the progress or 
impact of the Provincial Reconstruction Teams is very difficult. What 
thought are you giving to how the PRTs' work should be assessed? 
Without metrics, how do we know that the PRTs' work is supporting our 
strategy or how to adjust their efforts as conditions change? What 
thought is being given to how future reconstruction and stabilization 
operations should be measured?
    Secretary Pavel. It is important to evaluate success by outcomes--
progress toward strategic objectives. In contested environments, 
progress is not linear. Conditions change, and our operations must 
adapt to the new conditions.
    Drawing on the work done in metrics for Iraq and Afghanistan, The 
Army Peacekeeping and Stability Operations Institute (PKSOI), in 
conjunction with S/CRS, USAID, U.S. Army Corps of Engineers, and the 
U.S. Institute for Peace, are working to establish a system of more 
detailed metrics and transition points for conflict transformation that 
will assist in campaign design for counterinsurgency and stability 
operations.
    Currently in Iraq and Afghanistan, PRT metrics vary by each of the 
provinces in the regions--depending upon the needs and existing 
capacity of the region. The ultimate measure will be the withdrawal of 
the PRT because of the existence of sufficient freedom of commerce, 
effective government rule over territory, and freedom of the population 
to participate in that governance and commerce. Most general categories 
of metrics focus on the ability of the local government to take action, 
to include: ability to request, receive, and expend funds from the 
central government and other sources; ability to run educational and 
health systems. Many of our metrics are subjective--direct proportional 
relationships between the reduction of violence and reconstruction 
efforts; number of unsolicited tips; etc.
    Effective evaluation (metrics) is part of a more holistic process 
executed through a continuous planning process, to include: (1) 
carrying out joint assessments; (2) establishing clear objectives; (3) 
applying resources in a coordinate manner; and (4) developing 
milestones and transition points for achieving that objective. DOD is 
working with interagency partners to refine that planning process.
    Note: Specifics on Iraq/Afghanistan metrics should be directed to 
the Deputy Assistant Secretary of Defense for the Middle East and the 
Deputy Assistant Secretary of Defense for Central Asia, respectively.
    Dr. Snyder. A number of commentators have cited an over-reliance on 
DOD in times of crisis when, perhaps, other instruments of national 
power--diplomacy, economic measures, or effective strategic 
communications--would have been more effective. Do you share this view 
and if so, what specific changes can be made and by whom to the 
interagency process that would strengthen the ``voice'' of non-DOD 
agencies and enable non-military solutions or solutions where the 
military is only in the supporting role?
    Mr. Hess. We believe that this observation has merit, and that a 
whole-of-government preventative engagement with the developing world 
is always better than a military crisis response. A crisis for which a 
military response is needed is the sign of a failure to address the 
underlying causes of conflict. The choice should not be seen in terms 
of choosing between one agency and another in addressing crises. The 
choice should rather be made in favor of addressing the root causes of 
conflict over a sustained period rather than responding to a crisis 
after it has occurred.
    Dr. Snyder. While we have seen that a big part of the problem with 
the interagency process is how various agencies react to particular 
crises once they are underway, another big, and often overlooked, part 
of the equation is the interagency planning framework. Do you have any 
thoughts on how that might be more constructively structured and 
developed? Why hasn't the framework developed under NSPD-44 been used?
    Mr. Hess. The framework has not been used to date in part because 
the negotiations about how it will be made operational are still 
ongoing, and in part because no suitable crisis response requiring its 
use has occurred. USAID continues to be actively involved with S/CRS in 
working out these details, through the PCC process and numerous working 
groups. There remain many unanswered questions about how the framework 
will be made operational if it is stood up, and how activities on the 
ground will be funded, implemented, evaluated, and integrated with 
existing U.S. government development programs.
    Dr. Snyder. In May of 2007, President Bush named Lt. General 
Douglas Lute as assistant to the President and Deputy National Security 
Advisor for Iraq and Afghanistan. In that position, Lt. General Lute 
was charged with coordinating the efforts of the Executive Branch to 
support our commanders and senior diplomats on the ground in Iraq and 
Afghanistan. Could you comment on the effectiveness of that position to 
date, and why you believe it was necessary to create this position? 
What is wrong with the interagency structure that required ``ad hoc'' 
corrections? Have those conditions changed? Are there more ``war 
czars'' in our future?
    Mr. Hess. We have no information about how the decision was made to 
appoint Lt. General Lute to coordinate these efforts, nor about whether 
similar arrangements will need to be made in the future.
    Dr. Snyder. GAO reported that the State Department's internal 
guidance puts S/CRS's roles and responsibilities in ``conflict with 
State's regional bureaus and Chiefs of Mission.'' Can you comment on 
GAO's conclusion and tell us what is being done to address that issue?
    Mr. Hess. This is an internal Department of State matter on which 
it would not be helpful for USAID to comment.

                                  <all>

</pre></body></html>
